                                  EVALUATION




 ADMINISTRATIVE FUNCTIONS OF
 THE VIRGIN ISLANDS GOVERNMENT
 EMPLOYEES RETIREMENT SYSTEM




Report No.: VI-EV-VIS-0002-2010   September 2011
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR


                                                                                SEP 2 7 2011
The Honorable John P. deJongh, Jr.
Governor of the Virgin Islands
No. 21 Kongens Gade
St. Thomas, VI 00802

Subject:   Evaluation Report - Administrative Functions of the Virgin Islands Government
           Employees Retirement System
           Report No. VI-EV -VIS-0002-2010

Dear Governor deJongh:

        This report contains the results of our evaluation of the Virgin Islands Government
Employees Retirement System (Retirement System). We determined that the Retirement
System is at critical risk due to a growing unfunded liability of more than $1.4 billion. Factors
include insufficient contribution levels, an unhealthy ratio of active to retired members, and
unfunded legislative mandates. Without immediate action, the Retirement System could default
in 14 to 19 years or less.

        We offered four recommendations, concerning which we requested a response within 30
working days. We appreciate your August 30, 2011 response to the draft report (Appendix 2)
and are pleased that you concur with our recommendations.

        We also applaud your willingness to work collaboratively with the Retirement System
and the Virgin Islands Legislature to identify and implement realistic measures that could begin
to address the serious issues surrounding the pension system. The urgency of the current
situation cannot be understated. The conditions facing pensioners of the Virgin Islands may
mirror similar concerns across the United States but, though the circumstances may be dire, they
also provide a platform from which significant changes can be made. We recognize that it is
imperative for your government to work expeditiously toward a solution and remain hopeful
that the steps you outline will provide solutions to the issues we identified.

       Based on your response, we consider the four recommendations resolved but not
implemented (Appendix 3). If you have questions concerning this letter or the subject report, or
wish clarification regarding the ways in which our recommendations could further interface
with your stated actions, please contact Mr. Hannibal M. Ware, Assistant Regional Manager, at
703--487- 8058.

                                                 Sincerely,




                               Office of Inspector General   I Washington, DC
Table of Contents
Results in Brief ....................................................................................................... 1

Introduction ............................................................................................................. 2
   Objective ............................................................................................................. 2
   Background ......................................................................................................... 2
      Overview of the Virgin Islands Retirement System ........................................ 2

Findings................................................................................................................... 3
   Retirement System Sustainability ....................................................................... 3
      Insufficient Contribution Levels ...................................................................... 3
      Declining Ratio of Active to Retired Members ............................................... 4
      Unfunded Early Retirement Mandates ............................................................ 5
      Partial Implementation of the Retirement System Reform Act ....................... 6
   Deficiencies in Maintaining Member Information.............................................. 7
      Untimely Contributions ................................................................................... 7
      Inaccurate Data ................................................................................................ 8

Conclusion and Recommendations ....................................................................... 10
   Conclusion......................................................................................................... 10
   Recommendation Summary .............................................................................. 10

Appendix 1: Scope, Methodology, and Prior Coverage ....................................... 12
   Scope ................................................................................................................. 12
   Methodology ..................................................................................................... 12
   Prior Coverage................................................................................................... 12

Appendix 2: Virgin Islands Government Response.............................................. 13

Appendix 3: Status of Recommendations ............................................................. 21
Results in Brief
We identified a number of factors that have contributed to a Government of the
Virgin Islands (GVI) Retirement System (Retirement System) unfunded liability
of over $1.4 billion. This liability, which has been growing for years, represents a
gap between the amount of retirees’ future annuities and the projected value of
Retirement System assets.

The contributing factors include employee/employer contribution levels, the ratio
of active to retired members, and early retirement legislative mandates. As a
result, the long-term sustainability of the Retirement System, which is comprised
of just over 18,000 members, is critically at risk.

Without a combination of increased contributions and a large infusion of funds,
the unfunded liability can only worsen. In fact, the most recent actuarial
Retirement System evaluation, which was done in 2006, projects:

   •   default of the Retirement System in just 14 to 19 years and
   •   a corresponding cessation of benefits payments.

We also found that the Retirement System does not always maintain accurate
member information, which could actually lead to employees retiring earlier or
later than should be authorized under the System. The Retirement System could
also find itself paying incorrect annuities.




                                                                                   1
Introduction
Objective
In light of the many retirement funds currently facing challenges, we conducted
this evaluation to assess the long-term sustainability of the Government of the
Virgin Islands (GVI) Retirement System (Retirement System). (See appendix 1
for scope, methodology, and prior coverage).

Background
Overview of the Virgin Islands Retirement System
The Retirement System is an independent, subsidiary branch of the GVI that is
governed by a seven-member Board of Trustees (Board). The Retirement System
administers a defined-benefit pension plan for GVI employees. Such plans pay
their members a specific retirement annuity for life.

All employees of the Executive Branch and of independent instrumentalities of
the GVI must become members of the Retirement System as a condition of their
employment. Employees of the Legislative and Judicial Branches automatically
become members of the Retirement System unless they opt out within 90 days of
their service entry dates.

The Retirement System is funded through employer and member contributions,
interest income, and other income, as prescribed by the Board. The GVI and its
independent instrumentalities are required by law to contribute 17.5 percent of
their employees’ salaries. Members are required to contribute at a rate based on
job classifications and places of employment. The rate ranges from 8 to 11
percent.




                                                                                   2
Findings
We found that sustainability of the GVI Retirement System is critically at risk due
to an unfunded liability of more than $1.4 billion. Although the U.S. financial
market downturn of 2008 played a role in increasing this unfunded liability,
several other factors within GVI control had a major impact. These factors
include insufficient contribution levels, a decreasing ratio of active to retired
members, and unfunded early retirement legislative mandates.

Moreover, inaccurate information maintained in the Retirement System has
resulted in premature or deferred retirements and payment of inaccurate
retirement benefits. As a result, some Retirement System members have been
forced to make catch-up payments to qualify for entitled benefits.

Retirement System Sustainability
Insufficient Contribution Levels
GVI law requires that actuarial valuations be made every year to determine the
level of payroll contributions necessary to fund the Retirement System. Such
valuations are also required to determine the Retirement System’s current
condition and to analyze changes in actuarially-determined contribution rates. The
last valuation was conducted in 2009 based on conditions as of September 30,
2006.

The actuarial consultant contracted by the GVI determined at that time that
Retirement System sustainability required a payroll contribution of 43.2 percent.
Such contributions are made up of both employee and GVI contributions. Today,
the Retirement System is receiving payroll contributions at a rate of only 25.5
percent and pays out more benefits each year than payroll contributions can
support.

For comparison purposes, we reviewed other State defined-benefit pension plans
and found that actual payroll contributions commonly differ from the levels
recommended to sustain viability. For instance, the average State defined-benefit
retirement plan is funded at 96 percent of the amount that actuarial experts
prescribe for solvency. Funded at only 60.7 percent of required levels (see figure
1), the GVI Retirement System is one of the most under-funded plans in the
Nation. If insufficient contribution levels are not addressed, the GVI may be
unable to meet future payments to members.




                                                                                     3
     2008 Percentage of Actuarially-Required Payroll Contributions




Figure 1. State versus GVI Funding of Defined-Benefit Pension Plans. Sources: Segal and The
Pew Center on the States.

Declining Ratio of Active to Retired Members
Compounding the issue of insufficient contribution levels is the continually
declining ratio of active members to retired members. In past years, the
Retirement System had over 12,000 active members and about 5,400 retirees, for
a ratio of 2.2 active members to 1 retiree. In 2010, the Retirement System had
about 10,800 active members and about 7,500 retirees, for a perilously low ratio
of 1.4 active members to 1 retiree. Accordingly, although the Retirement System
took in approximately $117 million in payroll contributions on behalf of its
members in 2010, benefits and expenses were about $208 million for the same
period.

Combined, the declining member ratio and contributions gap have forced
Retirement System managers to meet financial obligations by withdrawing an
average of $5 to $6 million each month from the Retirement System’s investment
portfolio. As a result, the Retirement System’s annual deficit, which contributes to
the overall unfunded liability, ballooned from $23.7 to $70.2 million from FY
1999 to FY 2009. (See figure 2.)




                                                                                          4
                   Retirement System’s Ballooning Deficits

Fiscal    Total Contributions          Benefits Payments &        Deficit
Year      (millions)                   Expenses (millions)        (millions)
1999      $71.7                        $95.4                      $23.7
2000      $70.2                        $103.7                     $33.5
2001      $69.1                        $121.2                     $52.1
2002      $80.1                        $133.0                     $52.9
2003      $82.1                        $138.0                     $55.9
2004      $84.9                        $142.6                     $57.7
2005      $81.9                        $153.0                     $71.1
2006      $99.3                        $161.0                     $61.7
2007      $96.6                        $170.5                     $73.9
2008      $112.8                       $184.7                     $71.9
2009      $116.8                       $187.0                     $70.2

Figure 2. Retirement System Deficits That Span a Decade.

Unfunded Early Retirement Mandates
Between 1984 and 2001, the Virgin Islands Legislature (Legislature) passed
various laws designed to encourage workers to retire early. Although the GVI was
successful in reducing its workforce, each of the laws passed either made
lucrative provisions for early retirement or significantly increased benefit
packages. The Legislature failed, however, to fund these retirement laws or
funded them insufficiently, which has also increased the Retirement System’s
unfunded liability.

To quantify the effects of these laws on the Retirement System, we reviewed
retiree data for the Early Retirement Incentive, Training and Promotion Act of
1994 and a later amendment (legislative provisions). Under these legislative
provisions, active Retirement System members could become eligible for early
retirement for a limited time through three options:

    •    Option A allows each active member whose age plus years of service
         totals at least 75 to retire without a reduction of annuity.
    •    Option B allows each 50- to 59-year-old active member with 10 to 29
         years of service to add 3 years to his or her age.
    •    Option C allows a 4 percent increase to the average compensation amount
         for members with at least 30 years of service.

According to officials in the Retirement System’s Benefits Division, roughly 850
members have retired under these options. We found, however, that historical data
could be verified for only 648 retirees.




                                                                                 5
For the 648 retirees, we calculated the effect of the legislative provisions. We
used the Retirement System’s annuity formula and information from the retiree
report listing. Next, we consulted with the Retirement System’s Director of
Member Services to verify the correct use of the formula relative to each option.
Based on these calculations, the early retirement authorizations prevented the
Retirement System from collecting $121 million.

Recognizing that the Retirement System would incur losses based on the
legislative provisions, the Legislature of the Virgin Islands paid a total of $31
million to offset the losses. Proper funding of the early retirement incentive still
fell short by at least $90 million.

Partial Implementation of the Retirement System Reform Act
Recognizing that the Retirement System is in danger, the GVI enacted the
Retirement System Reform Act (RSRA) in 2005. To secure the sustainability of
the pension fund, the RSRA was designed to reduce unfunded liabilities by
increasing contributions and decreasing benefits. The RSRA created two tiers of
GVI employees. Tier 1 employees are those hired before September 30, 2005.
Tier 2 employees are those hired on and after October 1, 2005. Employees in each
tier are to receive different retirement benefits (see figure 3).

                 RSRA Changes to the Retirement System

                          Tier 1 Employees                Tier 2 Employees
Benefits Rates            2.5% per year of service        1.75% per year of service
                          8% of regular employee          8.5% of regular employee
                          salary                          salary
Contribution Rates
                          10% of hazardous duty           10.625% of hazardous duty
                          employee salary                 employee salary
                          5 highest salaries within       Last 5 salaries within the
Average Salary
                          the last 10 years of work       last 10 years of work

Figure 3. Major RSRA Retirement System Changes in 2005.

The RSRA also penalizes members who fail to pay service contributions to the
Retirement System. It prohibits payment of credited service benefits for excess
annual leave, sick leave, leave without pay, Federal service in the Virgin Islands,
or for prior military service until the Retirement System receives contribution
payments from the employee.

As of 2011, the RSRA has not been fully implemented. While Tier 1 changes
were implemented in January 2010, implementation of Tier 2 changes was
postponed at the request of the Governor of the Virgin Islands.

Because of the many challenges detailed above, an infusion of money is required
to prevent the impending default of the Retirement System. The actuarial



                                                                                       6
consultant has reported that the Retirement System’s unfunded liability could
reach more than $4 billion by 2027 — even with favorable market returns and an
increase of 3 percent in contributions every 5 years (beginning in FY 2009).

 Recommendations

    1. The Governor of the Virgin Islands should establish a joint taskforce
       composed of GVI financial experts and an actuarial expert to determine
       how to address the difference between current and recommended
       payroll contribution levels and to provide recommendations to the
       Legislature.

    2. Taking the taskforce’s recommendations into account, the Governor of
       the Virgin Islands should work with the Virgin Islands Legislature to
       develop and implement measures to improve the Retirement System’s
       sustainability.

    3. The Governor of the Virgin Islands should work with the Virgin Islands
       Legislature to ensure that any future early retirement legislative
       provisions are adequately funded.


Deficiencies in Maintaining Member Information
We found that the Retirement System does not always ensure that member
contributions are made on time or maintain accurate member data. Specifically,
the Retirement System has recorded contributions unsupported by official
personnel records, failed to reliably record member service entry dates, and
documented service entry dates that conflict with official personnel records. In
fact, the Retirement System is often unable to determine whether contributions
have been made.

To test the integrity of member information maintained by the Retirement System,
we selected a sample of 50 active members and reviewed their official personnel
records. We compared that information to the Retirement System’s computer-
generated Contributions History Report. We found that discrepancies existed in
38 of the 50 active-member files reviewed.

Untimely Contributions
According to Virgin Islands law, members with service entry dates prior to
October 2001 were to begin contributions upon completion of 1 year of service.
Members with service entry dates after October 2001 were to begin contribution
upon completion of 1 month of service. In 31 of the cases reviewed, however,
contributions were not paid into the Retirement System within required time
frames. Such delays impact both the Retirement System and the employees
involved. While the Retirement System is not receiving all contributions due, late-



                                                                                   7
contributing Retirement System members will be required to make catch-up
payments before they can receive retirement benefits.

Knowing that the Retirement System does not always capture contribution data,
the Retirement System Director wrote to the heads of the independent
instrumentalities and to the Virgin Islands Executive, Legislative, and Judicial
Branches in December 2009. The letter requested that active Retirement System
members with unpaid prior service contributions initiate payment plans before
January 29, 2010.

Retirement System members who responded had to complete Payroll Deduction
Authorizations and a Prior Service Form by the deadline to avoid paying interest
and losing investment opportunity. In these cases, Retirement System managers
plan to complete an official search and to refund any unwarranted payment. The
Retirement System now has 1,690 inquiries from members who are waiting to
learn how much to contribute for prior service that may not have been captured or
to receive refunds for excess contributions.

Inaccurate Data
The Retirement System does not always maintain the information needed to
confirm member service entry dates. For example, one active member, who is
waiting to learn how much money she owes, informed us that Retirement System
records show that her contributions began in 2005 despite the fact that she began
GVI employment in 1991. According to the Retirement System, this member has
to pay $24,000 in catch-up contributions for 15 years of service prior to 2005. As
of November 2010, a payment plan had not been initiated because the member
was off-island when the December 2009 letter was issued. Therefore, the $24,000
in catch-up payments would be subject to penalties such as interest and lost
investment opportunity.

Another example of inaccurate service entry dates relates to the case of an active
Retirement System member who began GVI employment in 1967. This member
informed us that not only does the Retirement System reflect three different dates
of entry — 1967, 1970, and 2005 — but that officials alleged in a March 2010
letter that the member owes $1,500 for prior service contributions.

Since the Retirement System shows 2005 as the member’s entry date, retirement
ineligibility resulted. In April 2010, the member filed an appeal with the Board. In
September 2010, Retirement System officials offered a $79 settlement that the
member declined. The matter is still pending before the Board.
We reviewed the Application for Service Retirement Annuity and the Final
Annuity Calculator Worksheet for 50 retirees and found that inaccurate member
information also resulted in delays in processing annuity payments to newly
retired Retirement System members. These delays may have created undue
financial hardship on these members. Specifically, the Retirement System
required an average of almost 5 months to issue initial annuity payments. The
longest delay was 16 months.


                                                                                   8
We recognize that the Retirement System has taken measures to resolve some of
these inaccuracies and to improve annuity payment timeliness. Specifically, the
Retirement System is currently converting to a new computer system that should
connect both the System and the Division of Personnel, which maintains official
personnel records. Retirement System managers expect this new system to resolve
the deficiencies that we found in member information maintenance.

System implementation was to “go live” in February 2011. The contractor did not,
however, meet that requirement and has requested a delay of 4 to 6 months. The
new system is currently in the design phase.

 Recommendation

    4. The Governor of the Virgin Islands should require Retirement System
       managers to identify areas for improvement. At a minimum, managers
       should address:

        a. collection of retirement contributions within established timeframes;
        b. reconciliation of member data with official GVI payroll records to
           ensure accuracy and, therefore, minimize contribution delays; and
        c. performance of periodic data quality reviews to ensure the integrity
           of member information.




                                                                               9
Conclusion and Recommendations
Conclusion
The Retirement System faces default in as few as 14 to 19 years or less and may
be unable to meet its contractual obligation to deliver promised retirement
benefits. Unless the GVI acts quickly to implement drastic reforms, GVI
employees who have made mandatory retirement contributions for years may find
themselves with no retirement income at all. In the meantime, Retirement System
managers cannot guarantee the accuracy of calculations involving length of
service, annuity disbursements, and catch-up payments for prior service because
they have not always maintained accurate employment data.

Recommendation Summary
We recommend that the Governor of the Virgin Islands:

       1. Establish a joint taskforce composed of GVI financial experts and an
          actuarial expert to determine how to address the difference between
          current and recommended payroll contribution levels and to provide
          recommendations to the Legislature;

          VI Response: The Governor will formally identify applicable
          members of his staff, financial team, and others to constitute the
          recommended task force. An implementation plan and due date are
          provided.

          OIG Reply: We consider the recommendation resolved but not
          implemented.

       2. Work with the Legislature — taking into account the taskforce’s
          recommendations — to develop and implement measures to improve
          the Retirement System’s sustainability.

          VI Response: The Governor will direct the task force to work closely
          with the Legislature to develop and implement realistic measures to
          enhance the sustainability of the Retirement System. An
          implementation plan and due date are provided.

          OIG Reply: We consider the recommendation resolved but not
          implemented.

       3. Work with the Virgin Islands Legislature to ensure that any future
          early retirement legislative provisions are adequately funded.




                                                                               10
   VI Response: The Governor will issue a policy statement to the
   Legislature in writing, establishing that any future retirement
   legislative provisions must be linked to an identified, viable, adequate
   and sustainable funding source. An implementation plan and due date
   are provided.

   OIG Reply: We consider the recommendation resolved but not
   implemented.

4. Require Retirement System managers to identify areas for
   improvement. At a minimum, managers should address:

   a. collection of retirement contributions within established
      timeframes;
   b. reconciliation of member data with official GVI payroll records to
      ensure accuracy and, therefore, minimize contribution delays; and
   c. performance of periodic data quality reviews to ensure the integrity
      of member information.

   VI Response: The Office of the Governor will initiate a meeting
   among appropriate entities to address matters related to timeliness of
   member contributions, the basis for recording these contributions,
   service entry dates, and other information. An implementation plan
   and due date are provided.

   OIG Reply: We consider the recommendation resolved but not
   implemented.




                                                                         11
Appendix 1: Scope, Methodology, and
Prior Coverage
Scope
This evaluation’s objective was to assess the long-term sustainability and
performance of administrative functions of the Retirement System. Our scope was
limited by Retirement System officials’ inability to provide historical data for
unfunded mandates and retirees’ payroll processed prior to August 2001 by the
Department of Finance. We could only determine, therefore, the amount that the
Retirement System lost in contributions for 648 members who elected early
retirement incentives that were passed by the Legislature in 1994.

Methodology
We performed our work in accordance with the “Quality Standards for
Inspections” issued by the Council of Inspectors General on Integrity and
Efficiency. To accomplish our objective, we interviewed Retirement System
officials, the contracted actuarial consultant, and both active and retired members.
We reviewed records pertaining to the unfunded liability, contributions,
retirement benefits, loans, contracts, and credit cards. We studied defined benefit
pension plans similar to that of the Virgin Islands. We also reviewed employment
records of the Division of Personnel and visited the new Retirement System office
project site on St. Croix.

Prior Coverage
March 1999, Government Employees Retirement System, Government of the
Virgin Islands (No. V-IN-VIS-002-98). The report noted inadequate
administering of loans to members and ineffective management and monitoring of
employer and employee contributions.

September 1991, Follow-up of Recommendations Concerning the Employees
Retirement System, Government of the Virgin Islands (No.V-IN-VIS-002-91).
The report noted that improvements were needed with regard to loan
administration.

September 1985, Employees Retirement System, Government of the Virgin
Islands (No. V-TG-VIS-24-84). The report detailed that improvements were
needed in the controls over reserve funding, loan policies and administration,
interest income, the performance of professional investment managers, and
computing duty-connected disability annuities.




                                                                                 12
Appendix 2: Virgin Islands
Government Response
The Virgin Islands Government’s response to the draft report follows on page 14.




                                                                              13
                               THJo:: UNITED
                               TID    UNITt]) STATES VIRGIN   isLANDS
                                                     VIR(; IN IsLANDS
                                          OfFICE Of THE GOVE
                                          OFFICE        GOVERNOR
                                                             RNOR
                                            GOVERNMENT HOUSE
                                       Charlotte Amalie, V.I
                                                         V.I.. 00802
                                              340-174-0001I
                                              346-774-000

                                           August 30, 2011



Ms
Ms.. Kimberly Elmore
Assistant Inspector General for Audits, Inspections and Evaluations
U.S. Department of the Interio
                       Interiorr
Office of Inspector General
1849 C Street, NW MS 4418
Washington, DC 20240

RE:    Response by the Government of the                     tbe Draft Evaluation Report •~
                                       tbe Virgin Islands to the
       Administrative Functions of tbe Virgin Islands Government Employees Retirement
                          VI-- EV-VIS-0002-2010, June 2011)
       System (Report No. VI

Dear Ms. Elmore:

         I am in receipt of your Draft Evaluation Report - Administrative Funct
                                                                            Functions
                                                                                  ions of the Virgin
Islands Government Employees Retirement S y stems, Report No. VI-EV-VIS-0002-20IO,
                                                                      VI-EV-V1S-0002-20 10, daled
                                                                                               dated
June 2011.
        20 II. I would say at the outset, before responding specifically to the four (4)
recommendations that the Government of the U.S.    U.S . Virgin Islands concurs with the overall
conclusion stated in your letter of introduction. The Employees Retirement System of the
Government of the Virgin Is     lands (GERS) is indeed at critical risk due to a growing unfunded
                              Islands
liability.

        This is not a new situation or a new challenge
                                             challenge,, nor is it unique to the United States Virgin
Islands. Each of the bond rating agencies ha havve issued warnings on this National issue over the
past year, and there has been a broad recognition that the official estimate of state and lneal  local
government pension underfunding of $900.0 billion may well understate the actuaI actual shortfall, and
that the actual underfunding may approximate the $3.7 trillion estimate from JP   IP Morgan in Apri
                                                                                                 Aprill
of this year. Factors contributing to the higher number include five year smoothing that tends to
mask the true market value of public pension fund assets, as wen
                                                               well as other factors.

        I applaud the effort of the U.S. Department of the Interior
                                                                 Interior'' s Office of the Inspector
General to draw attention to this crucial situation. In February 20072007,, in my first State of the
          Address,, I first warned that we must as a Territory develop a comprehensive solution to
Territory Address
a pension funding gap that at that time had already exceeded $1 .0 billion. I also hosted a Summit
in July 2009 with G ERS' trustees and management and members of the Virgin Islands
Legislature to address systemic concerns. Additionally, my Administration took proactive steps
and increased the employer contribution from 14.5% to 17.5%.


                                                                                                     14
Ms. Kimberly Elmore
August 30, 2011
Page 2

        The gravity of the pension funding challenge has lent urgency to our economic
development efforts, and in particular our efforts to develop and expand the rum industry in the
Territory
Tenitory and grow our matching fund revenues. As your report states, and as the GERS actuary
has stated in each report they have issued, the central problem faced by GERS has been and
continues to be underfunding of the annual required contribution from the Government. That
underfunding, which has steadily grown over the years to reach approximately $80.0 million
annually, has been a central budget challenge, and one that we believe requires new revenues if it
is to be successfully addressed
                       addressed.. Accordingly
                                   Accordingly,, it has been our expectation that the new rum
revenues would provide a revenue stream that could be dedicated to meeting this challenge.

        Unfortunately, in the intervening years, the downturn in the global economy,
                                                                                   economy. and
specifically the collapse in our Corporate Income Tax receipts, have placed additional stress on
the budget of the Government, and has made carving out the $80.0 million or more necessary to
meet the GERS'
          GERS ' annual obligation an ever greater challenge. Those new rum revenues, which
     originally anticipated to be sufficient to address the GERS funding need, are now needed as
were origioaUy
well by the General Fund,
                      Ftmd, which has suffered substantial revenue declines since 2007. We also
note that the size of this annual deficit will also be adversely impacted by the recent
implementation of the Economic Stability Act o f2011 and proposed amendments thereto
                                                                                  thereto..

       Based on our monthly cashflow infonnation, this projection may in fact tmderstate
                                                                                    understate the
urgency of the current situation. Based upon recent data, the current negative cashflow of the
GERS going forward is well in excess of $80. 0 million, and will result in the system running out
of funds in 10-12
            10- 12 years. This has been and remains the central fmancial challenge facing the
Government

       You have in your draft report offered four (4) recommendations for our concurrence or
non-concurrence. We have addressed each of these in the attached GVI Response to the report
         I)..
(Exhibit J)

        We greatly appreciate the time and effort that went into the development of this report.
This is an issue of critical concern for us and all of the stakeholders of the Territory, and it
affects our capacity to address all other problems and challenges that we face. Accordingly, my
administration is committed to working collaboratively with GERS and the Virgin Islands
Legislature to identify and implement rea   realli stic measures to begin to address this major
opportunity to strengthen and sustain GVPs pe
opporttmity                                   penn sion system.

                                     Sincerely,



                                  ~~.~
                                  4~~
Attachment




                                                                                                15
                                                                                      Exhibit I


             Government of the Virgin Islands Response to Draft Evaluation Report
        of the Office of the Inspector General (OIG) to the Administrative Functions
               of the Virgin Islands Government Employees Retirement System
                         (Report No. VI
                                      VI·EV·VI5-0002·2010,
                                        ·EV·VI5-0002·2010, June 2011)



FINDING #1: RETIREMENT SYSTEM SUSTAINABILITY

       The sustain ability of the Government of the Virgin Islands (GVI) Retirement System is
           sustainability
critically at risk due to an unfunded liability of more than $1.4 billion. Although the U.S
                                                                                          U.S..
financial market downturn of 2008 played a role in increasing this unfunded liability, several
other factors within GVI control had a major impact. These factors include insufficient
contribution levels, a decreasing ratio of active to retired members, and unfunded early
retirement legislative mandates.

Recommendations (Governor of the Virgin Islands):

   1. Establish a joint task force composed of GVI financial experts and an actuarial expert to
      determine how to address the difference between current and recommended payroll
      contribution levels and to provide recommendations to the Legislature.
   2. Taking the task force's recommendations into account, work with the Virgin Islands
      Legislature to develop and implement measures to improve the Retirement System's
      sustain ability.
      sustainability.
   3. Work with the Virgin Islands Legislature to ensure that any future early retirement
      legislative provisions are adequately funded.

Government's Response

Pavroll Contribution Levels
Payroll

       The Governor of the Virgin Islands (Governor) concurs with Recommendation #1 in
Finding #1, but notes that in essence this step may be redundant. We have worked with GERS'
actuary, SEGAL, on a regular basis, and they have proVided the suggested information. In fact,
at the Governor's Summit in July 2009, SEGAL presented this spe
                                                            specific
                                                                Cific information at our
request. We are not opposed to the creation of a task force as recommended herein, but
would suggest that the determination of the required contribution levels is not itself a
challenge.




                                              1

                                                                                             16
Action Plan

        The Governor will formally identify applicable members of his staff, financial team, and
in general, his Adm
                Administration
                    inistration who have already been working with GERS and its actuary to
constitute the recommended task force. The team will continue to work with SEGAL and will
memorialize measures taken to -date (e.g. change in employer contribution rate) that impact
the contribution level coupled with future proposed actions recommended for implementation
to address same.

Implementation Date: FY 2009

Due Date: 1st quarter of FY 2012

Person Responsible: Chief of Staff, Office of the Governor

Retirement System Sustainability

        The Governor fully concurs with Recommendation #2 in Finding #1. We note that the
                              legislature and the Executive alike is that the $80.0 million annual
central challenge facing the Legislature
obligation to GERS constitutes approximately 10% of the net revenues to the General Fund, and
accordingly, to fund this obligation within the current context of declining revenues will require
a range of actions in combination that will likely include (i) (iJ subs
                                                                   substantial
                                                                         tantia l cuts in other areas and
layoffs of personnel beyond the levels already contemp l ated (ii) expansion of the existing tax
base through tax base expansion and economic development initiatives initiatives,, (iii) implementation of
revenue raising measures that may include increased taxes or fees, (iv) legislative actions to
address growing retirement system costs
                                      costs.. Thi
                                              Thiss obligation, as your report has correctly stated, is
an absolute obligation, the failure of which to fund will lead to severe fiscal repercussions down
the road.

Action Plan:

       The Governor will direct the task fo rce to work closely with the V.1. Legislature
                                         force                                legislature to
develop and implement realistic measures to enhance the sustainability of the Retirement
System.

Due Date: 1st quarter of FY 2012

Person Responsible: Chief of Staff, Office of the
                                              t he Governor




                                                    2

                                                                                                        17
Funding Early Retirement

         The Governor fu  lly concurs with Recommendation #3 in Finding #1. Atthoug
                        fully                                                         Althoughh it does
                   ea rly retirement bill, but ra
not constitute an early                           t her addresses employees with 30 or more years
                                                rather
of service, with the most recent passage of the Economic Stabi      lity
                                                               Stabilit y Act of 2011, identification of
a funding source for the incentive payments, etc. was a prerequisite
                                                             prereq uisite to affixing my signature to
th is legislation. Accord in gly, my continued commitment to ensuri ensuringng adequate fund    ing also
                                                                                          funding
extends to future ret irement legis
                   retirement        lative propo sals.
                                legislative

Act ion Plan:
Action

           The Governor will issue a policy statement which    wh ich will be articulated to the V. 1.
leg   islatu re in writing that any future ret
legislature                                         irement legis
                                                 retirement       lative provisions, inclusive of early
                                                             legislative
retirement measures (purs      uant to the requirements of Ti
                          (pursuant                              tle 3, Chapter 27, Sections
                                                               Title                              m
                                                                                     Sections 718 U) and
(k ), VIC), must be lin
                     linked
                        ked to an identified, viable, adequate and sustainab    le funding source that is
                                                                       sustainable
not already committed to genera l fund operations, or other key or critical purposes . Further,
                                718a.. (f) Virgin Islands Code (V IC) which reads as follows will also be
Title 3, Chapter 27, Section 718a
emphasized.

      The system shall not provide any new increases in benefits to members or
      beneficiaries unless the Government has deposited
                                                depOSited the funding for the prior fiscal
      year into the bank account of the system and concurrently makes a provision for
      the funding of all future benefit impro
                                        improvvements on a sound actuarial basis in the
      budget.

      It is im perative to the viability of the GERS that key stake
                                                                  stakeho
                                                                        ho lders understand that in
accordance with Title 3, Chapter 27
                                  27,, Section 718 (I) VIC, GERS is precl uded from paying benefits
                                                                    precluded
if the comb  ined contribution (employee and
       combined                              an d employer contr   ibutions) does not "adequate ly
                                                             contributions)
finance benefits and related costs"
                              costs"..

    Date:: 1st quarte
Due Date       quarterr of FY 2012

Person Responsibll e: Chief of Staff, Office of t h e Governor
       Responsib



FINDING
 INDING #2: DEFIC
            DEFICIENCIES
                  IENCIES IN MA
                             MAINTAINING
                                INTAINING MEMBER INFOR
                                                 INFORMATION
                                                       MATION

        Inaccurate information maintained in t he Retirement System has resulted in premature
or deferred ret  irements and payment of inaccurate retirement benefits. As a result, some
             retirements
Retirement System members have been fo     forced
                                             rced to make catch-up payments to qua     lify for
                                                                                    qualify
entitled benefits.

Recommendat
Recommendatiion IGovernor
                (Governor of the Virgin Islands)
                                        Islands)::


                                                    3


                                                                                                       18
   1. Require Retirement System managers to identify areas for improvement.                  At a
      minimum, managers should address:

               a. collection of retirement contributions within established timeframes;
               b . reconciliation of member data with official GVI payroll records to ensure
                   accuracy and, therefore, minimize contribution delays; and
               c. performance of periodic data quality reviews to ensure the integrity of
                   member information.

Government's Response

Maintaining Member Information

        The Governor fully concurs with Recommendation #1 (a/k/a Recommendation #4,
overall in the draft report) in Finding #2.
                                        #2 . The lack of sufficient information, including ongoing
census information, has impeded the development of actuarial reports on an annual and timely
basis.

         However, for the past several months
                                         months,, GERS has been engaged in a massive project to
introduce technology in the administration of benefits, and it is anticipated that these efforts
will ameliorate this situation. Over 2 million pieces of member records have been converted to
electronic files
             files.. There has been extensive review of members' records through data recovery
from members and cleansing of members' da     data
                                                t a to insure that the correct member information
is in their files. Further, GERS has entered into Memoranda of Agreements (MOAs) with various
departments to obtain the member information on a timely basis.

        The new Benefits Administration System is scheduled to "go live" on September
                                                                                 eptember 30,
2011 . Employees received hands-on training on the system from July 15 - August 15. Between
August 15 and the "go live" date of September 30th , the staff will run simulations to test the
integrity of the system.

Action Plan:

        To preclude the possibility of deficiencies in member information due to the timing of
the receipt of initial information and updated data, the Office of the Governor (OFG) and/or the
Division of Personnel, as directed by OFG will initiate a meeting between GERS, the Division
                                                                                      DiviSion of
Personnel, the Department of Finance, and the Human Resources/Personnel and Payroll
Managers for the semi-autonomous and autonomous government entities to address matters
germane to the following: timeliness of member contributions and basis for recording them,
service entry dates, executed NOPAs (Notifications
                                       (Notificat ions of Personnel Action), etc
                                                                             etc..

        Further, the Office of the Governor will require the task force and/or the Department of
Finance (and the Division of Personnel) to meet with GERS to address the three (3) areas
indicated in the audit report: the collection of retirement contributions within established

                                                4


                                                                                                19
timeframes, the reconciliation of member data with official GVGVII payroll records, and the
performance of periodic data quality reviews of member information
                                                        nformati on..

       At present, some of the measures that are already in place that enhance the reliability
and validity of member information are as follows:

       (A)     Personnel Officers Meeting - GERS co  conducts
                                                        nducts an annual seminar to update
               Human Resource (HR) managers territory
                                              territory--wide.
       (B)     HR/Personnel Officers Meeting - At least once a month, the Division of
               Personnel (DOP) meets with Human Resource and personnel/payroll emp
                                                                                 employees
                                                                                     loyees
               government-wide.
       (C)
       (e)     Employee Orientation Workshop - Monthly or quarterly (as needed), DOP makes
               available a workshop for new and existing Government employees.
                                                                     employees. This began
               as an orientation for new employees, but developed in into
                                                                       to a forum for other
               interested Government employees, as well.

        To enhance the on-go
                         on-going
                               ing efforts by GE
                                              GERRS and DOP, the Government will also implement
the following actions
               actions:: (i) G
                             GERS will provide th
                                                the e Department of Finance (DOF) with a written
notice (re: checking member information (e    (e.g.
                                                .g. retirement contributions on pay st
                                                                                    stub,
                                                                                       ub, service
dates on NOPAs))
          NOPAsll to be printed on a future pay stub for Government employees; and (ii) GERS
will follow
     follow--up in writing on the status of legislation submitted to change the date of
contribution payments to begin immediately upon hire.

Implementation
Implem entation Date(s):      Annua lly & on
                              Annually    on--going - GERS Personnel Officers Meeting
                              Monthly & on-going - DOP HR/Personnel Officers Meeting
                              As needed & onon-- going - DOP Employee Or
                                                                      Orientation
                                                                         ientation Workshop
                              2010 - MOAs with departments
                              2010 - draft legislation
                                            egislati on to the Senate

Due Date(s): September 30, 2011 - new Benefits Administration System
             1" quarter of FY 2012 - DOP/GERS, etc. me    eting
                                                       meeting
               st
             1 quarter of FY 2012 - Task Force/GERS, etc . meeting
             4th quarter of FY 2011 to 1st quarter of FY 2012 - pay stub notice
             4th quarter of FY 2011 - follow-up re: draft retirement legislation

Person Responsible: Administrator and Director of Memb
                                                     Member er Services, GERS
                    Chief of Staff, Office of t he
                                                he Governor




                                                5

                                                                                                20
Appendix 3: Status of
Recommendations
  Recommendations          Status     Action Required

                    Resolved; not   Implementation by
         1
                    implemented.    March 1, 2012.



                    Resolved; not   Implementation by
         2
                    implemented.    March 1, 2012.


                    Resolved; not   Implementation by
         3
                    implemented.    March 1, 2012.


                                    Implementation dates:
                                    September 30, 2011 –
                                    Benefits Administration
                                    System
                    Resolved; not   December 1, 2011 –
         4
                    implemented.    Draft of Retirement
                                    Legislation
                                    March 1, 2012 – Task
                                    Force Meeting/Pay Stub
                                    Notice




                                                         21
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, Departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             Departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doioig.gov

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
